U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 29, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Michael Binday v. United States, No. 19-273
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 27,
2019. The govermnent's response is now due, after two extensions, on December 4, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 3, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0273
BINDAY, MICHAEL
USA

DAVID W. SHAPIRO
THE NORTON LAW FIRM LLP
299 THIRD ST.
SUITE 106
OAKLAND, CA 94607
510-906-4900
DSHAPIRO@NORTONLAW.COM

